                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: I 03120070                                                                    Page 1 of 1

                                                                                                   I



          A proactive review of various Conference Grants identified 2 specific concerns regarding an NSF
           ward' to a universit? to support their participation in an annual summer college. Although the
          grant was awarded to support the travel of participants to the summer college held in 2001,
          expenses totaling more than $4,800 for travel during the following year's summer college,were
          charged against the award. Additionally, the supporting documentation supplied by the
          university identified the use of grant funds to pay for non-American flagged airlines by the
          participants in possible violation of the Fly America ~ c t ~ .

          A request for additional information was sent to the university asking them to explain the bse of
          the non-American air carrier and the use of unexpended grant funds to support several
          individuals' travel expenses for the following year's summer college. On February 14,2004, we
          received the university's reply and after confirming the accuracy of the information we were able
          to determine that the actions taken by the university were approved by NSF personnel.      I



          Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
